Supreme CouTT
U.S.
F/LED

AUG 1 7 2021
No.

^S°mECLERK

.S

IN THE

SUPREME COURT OF THE UNITED STATES
Dr. PROBIR KUMAR BONDYOPADHYAY

— PETITIONER

vs
UNITED STATES OF AMERICA — RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE FEDERAL CIRCUIT
(Name of Court that last ruled on Merits of the Petitioner’s case)

PETITION FOR WRIT OF CERTIORARI
/S', 2.0 Z!
Dr. Probir Kumar Bondyopadhyay
(U.S. Citizen, Independent Inventor & Owner, Pro Se)

14418 Oak Chase Drive
Houston, Texas 77062, USA

RECEIVED
1-281-486-7735, 1-832-758-6514 (Mobile)

AUG 2 0 2021
gr,gg|M0EFcToHuERcT!-EuRsK

QUESTIONS PRESENTED
The question before the Honorable U.S. Supreme Court is on the
recognition and affirmation of the Jeffersonian claim of an original creature
of the U.S. Constitution against the United States under Article 1 Section 8
Clause 8 arising out of admittedly unauthorized and intentional use (over a
continuous period of 12 years 7 months and 16 days) of a patented U.S.
invention vital for U.S. National Defense on which the U.S. Court of Federal
Claims (USCFC) and the U.S. Court of Appeals for the Federal Circuit
(CAFC) issued no judgment (even under CAFC Rule 40 and CAFC Rule 35).
[Appendix-A, Appendix-B and Appendix-C].
This petitioner, a U.S. Citizen sole independent inventor and sole owner
of the patented (US 6,292,134) U.S. invention (of a very large Phased Array
Antenna system architecture for modernization of Air Force Satellite Control
Network) was accorded the status of the said original creature of the U.S.
Constitution by the CAFC (0:2018cvus01674) with its mandate issued on
September 7, 2018. The applicable exclusive constitutional law Title 28 USC
Section 1498(a) was not applied to the admitted facts by the USCFC
(Appendix-C) thus interrupting the progress of science and necessary
improvements in U.S. National Defense capabilities.

-l-

LIST OF PARTIES
There is only one party in this case and this said party is recognized
as the United States in Title 28 USC Section 1498(a), the applicable
Constitutional Law.
The actual Defendant (respondent) in this case of Jeffersonian
Claim, for which this petition for a writ of certiorari is filed, is the U.S. Air
Force Research Laboratory (AFRL) which administers the Air Force
Small Business Innovation Research (SBIR) program under the central
control of the Office of the U.S. Secretary of Defense (OSD) where the
Jeffersonian Claim has actually originated.

RELATED CASES
Bondyopadhyay v. U.S.A., No. l:19-cv-01831-MBH, U.S. Court of Federal
Claims (USCFC), Judgment entered June 23, 2020. (Appendix-C)
Bondyopadhyay v. U.S.A., No. 0:2020cvus02091, U.S. Court of Appeals for
the Federal Circuit (CAFC), Judgment entered March 11, 2021 CAFC Rule
40, timely rehearing and CAFC Rule 35 timely hearing judgments
entered May 24, 2021. (Appendix-A and Appendix-B)
[These two are the cases DIRECTLY related to the case in this court. Rule 14
(b) (iii).]

-li-

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

8

CONCLUSION

9

INDEX TO APPENDICES
APPENDIX - A

CAFC Opinion of three Judge Panel (3/11/21)

APPENDIX - B

CAFC Opinion under CAFC Rules 40 and 35 (5/24/21)

APPENDIX -C

USCFC Opinion (6/23/20)

APPENDIX - D

Original U.S. District Court Order (10/23/2013)
(NOT under review)

-in-

TABLE OF AUTHORITIES CITED
CASES
1. The U.S. District Court (SDTX, Houston) Order (case 4:13-cv-01914,
Docket Document 43) of October 23, 2013 first established this U.S. citizen
Petitioner as the sole Inventor and sole Owner of the U.S. Patent 6,292,134
entitled: Geodesic Sphere Phased Array Antenna System. The District Court
order also established admitted unauthorized use of the U.S. patent for the
continuous period of 12 years 7 months and 16 days. (Appemdix-D)
2. The U.S. Court of Appeals for the Federal Circuit (CAFC) mandate of
September 7, 2018 [case 0:2018cvus01674] reaffirming that this U.S. Citizen
Petitioner for this writ of certiorari is simultaneously the sole inventor and
sole owner of the U.S. Patent 6,292,134 (a U.S. Constitutional creature)
under Article 1, section 8 clause 8 and Title 28 U.S.C. Section 1498(a), the
constitution law.
STATUTES AND RULES

1. Article I Section 8 Clause 8 of the U.S. Constitution

2. Title 28 U.S. Code § 1498(a) the constitution law.

-IV-

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the
judgment below.
OPINIONS BELOW
For cases from federal courts:
The opinion of the United States Court of Appeals for the Federal Circuits
(CAFC) appears at Appendix-A and Appendix-B to the petition and is
reported at [0:2020cvus02091, Docket Document 43, filed 03/11/2021 and
Docket Document 46, filed 05/24/2021];
The opinion of the United States Court of Federal Claims (USCFC)
appears at Appendix-C to the petition and is reported at [l:19-cv-01831MBH, Docket Document 17 filed 06/23/2020]

1.

For cases from federal courts:
JURISDICTION
The date on which the United States Court of Appeals for the Federal
Circuit (CAFC) decided my case was March 11, 2021. (Appendix-A)
A timely petition for rehearing was denied by the United States
Court of Appeals for the Federal Circuit (CAFC) on the following
date: May 24, 2021, and a copy of the order denying rehearing
appears at Appendix -B.

The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
1. Article 1 Section 8 Clause 8 of the U.S. Constitution
To promote the Progress of Science and useful Arts, by securing for
limited Times to Authors and Inventors the exclusive Right to their
respective Writings and Discoveries.

[The JEFFERSONIAN CLAIM originates from the words
‘To promote progress of science’, ‘exclusive rights’, ‘for limited times’ and
‘inventors’] for a U.S. Citizen Inventor AND Owner of a US. patent.

2. U.S. Constitution Law: Title 28 USC Section 1498(a)
Whenever an invention described in and covered by a patent of the
United States is used or manufactured by or for the United States
without license of the owner thereof or lawful right to use or
manufacture the same, the owner’s remedy shall be by action against
the United States in the United States Court of Federal Claims for the
recovery of his reasonable and entire compensation for such use and
manufacture.

[The JEFFERSONIAN CLAIM is governed by the words:
'covered by a patent of the United States', 1is used, and for the United States
without the license of the owner thereof].
in the CONSTITUTION LAW Title 28 USC Section 1498(a).
3.

STATEMENT OF THE CASE
1. This petitioner, a U.S. Citizen is the sole inventor AND sole owner of the
U.S. Patent (US 6,292,134): Geodesic Sphere Phased Array Antenna System —
a very large system architecture patent for primary applications in U.S.
national defense, that requires at least twenty three years of continuous
effort to design, manufacture and make the system operational. This twentytwo years effort plan is pictorially described in Appendix-C.
2. The U.S. Air Force through its Small Business Innovation Research (SBIR)
program, acquired unauthorized, this innovation (that soon became this U.S.
Patent), in January 1999 and began immediately using it for modernization
of the Air Force Satellite Control Network (AFSCN).
3. Nine separate U.S. Federal Court cases were successfully executed step by
step, mostly under Title 28 USC Section 1338(a), during 2003 through 2019
to establish, confirm and reconfirm, this petitioner as a U.S. Constitutional
creature under Article 1 Section 8 Clause 8 with the CAFC mandate of
September 7, 2018 (case 0:2018cvus01674) that this U.S. Citizen petitioner is
the sole inventor and sole owner of the said U.S. Patent 6,292,134 that was
renewed three times to its full twenty (20) year life span.
4. Unauthorized conscious use of this very large system architecture patent
for dedicated U.S. national defense applications from the very beginning
by the U.S. Air Force that gives rise to the Jeffersonian Claim of this U.S.
4.

constitutional creature, was judicially established first by the U.S. District
Court (SDTX Houston) on October 23, 2013. [Case 4.13-cv-01914, Docket
Document 43, in Appendix-D]
5. This Jeffersonian Claim (U.S. Constitutional Claim of this petitioner, a
U.S. Constitutional Creature) for the continuous time period of 12 years 7
months and 16 days was filed for the first time in the U.S. Court of Federal
Claims (USCFC) on November 27, 2019 under Title 28 USC Section 1498(a),
the exclusive constitutional law. (Appendix-C, case l:19-cv-01831-MBH)
6. The USCFC on June 23, 2020, admitted the Facts but did NOT apply the
exclusive constitutional law to the facts that established the Jeffersonian
Claim. (Appendix-C)
7. There is NO specific accused device in the U.S. constitutional
Jeffersonian Claim.
8. The Jeffersonian Claim is constitutionally based on continuous
unauthorized ‘pregnancy’ during the continuous time period of 12
years 7 months and 16 days and NOT on the ‘status of the fetus’ (the
‘accused device’) at the end of 12 years 7 months and 16 days.
9. The Honorable U.S. Court of Appeals for the Federal Circuit (CAFC) at all
the three levels (Appendix-A and Appendix-B, case 0:2020cvus02091) failed
to recognize and address this Jeffersonian Claim, the constitutional
fundamental right of the constitutional creature under Article 1 Section 8
5.

Clause 8.
10.

The U.S. Air Force has correctly recognized that this invention, the

electronic scanning Geodesic Sphere Phased Array Antenna System (US
Patent 6,292,134) is THE right system solution for modernization of the Air
Force Satellite Control Network (AFSCN) Systems but has failed to honor the
Jeffersonian Claim of the true inventor knowing it from the very beginning
who is the true inventor.
11. The 23-year project that started in the fiscal year 1999, stands halted as
of July 1, 2013 as it requires design corrections for optimum performance.
The reason, in the first place, being that no one in the Defense Pentagon
could notice that the natural building blocks of a regular pentagon is not a
smaller regular hexagon but an isosceles triangle with two equal angles being
54°.
12. The background of this case before the Jeffersonian Claim was filed for
the first time on November 27, 2019 is briefly and precisely as follows.
Patent infringement claim against the United States of America (U.S. Air
Force) was first established by the U.S. District Court Order of October 23,
2013. [Case 4:14-cv-01914, SDTX, Houston, Docket Document 43, in
Appendix-D]. The Claim went to the U.S. Court of Federal Claims in
February 2014 where, the Defendant in contempt of the said U.S. District
Court Order filed a false affidavit to obstruct justice, [case l:119-cv-018316.

MBH, in Docket Document 19, dated May 26, 2015] The Jeffersonian could
not be addressed there and the U.S. Court of Appeals for the Federal Circuit
was moved in 2018 to get the mandate that this Petitioner is the true original
inventor and sole owner of the infringed active U.S. Patent, [case 0:2018cvus01674, mandate issued September 7, 2018]. The U.S. District Court was
moved again to reaffirm the U.S. Constitutional creature status of this
Petitioner Plaintiff under Title 28 USC Section 1338(a) defeating again the
obstruction of justice on the question of ownership of this live patent.
14. The end date of the Jeffersonian Claim is October 11, 2012 when the U.S.
Air Force made the public announcement from San Antonio, Texas that it is
developing the electronic scanning Geodesic Sphere Phased Array Antenna
System for modernization of the Air Force Satellite Control Network
(AFSCN) system. This date is NOT in dispute for this Jeffersonian Claim.
15. The ‘outrage’ of this Petitioner is the fact that the USCFC Opinion of
June

23,

2020

says

(Appendix-C)

that

CAFC

confirmed

applicable

EXCLUSIVE law to the FACTS is Title 28 USC Section 1498(a). Yet the
USCFC does NOT apply this Constitutional Law to the FACTS.
[see Page 19 of this Opinion line 2 and line 3 from above, Appendix-C]
16. This must not stand.

7.

REASONS FOR GRANTING THE PETITION
The

Jeffersonian

Claim

of a

constitutional

creature

is

a

constitutional order ‘To promote the Progress of Science9.
This

U.S.

Constitution

Order

must have

to be

recognized

and

implemented.
The U.S. Court of Federal Claims (USCFC), a derivative creature of
Article 1 Section 8 Clause 9 of the U.S Constitution has disobeyed this order
of its Creator by consciously failing to apply the exclusive Constitutional Law
[Title 28 USC Section 1498(a)] to the admitted facts. The USCFC in its very
Opinion and Order of June 23, 2020 explicitly stated that Title 28 USC
Section 1498(a) is the exclusive standing applicable law, directed and
confirmed by earlier decisions of the U.S. Court of Appeals for the Federal
Circuit (CAFC). Yet, the CAFC itself, in the Opinion of its first three Judge
Panel (headed by the Chief Judge) failed to notice and correct this error.
When pointed out in the rehearing request (CAFC Rule 40) and en banc
hearing request (CAFC Rule 35), the Honorable Chief Judge vacated the
position and both rehearing and en banc hearing were denied (Appendix-A).
To rectify this situation the writ of certiorari needs to be granted so that
justice is served and the project of national defense interest could be
restarted on the correct design path.

8.

CONCLUSION
Once again, the Jeffersonian Claim of a U.S. Constitutional creature
arising out of admitted unauthorized use of a patented U.S. invention for
dedicated use in national defense under Article 1 Section 8 Clause 8 of the
U.S. Constitution is a Constitutional Order.
The USCFC did not obey the order of its Creator. An order from the
Honorable U.S. Supreme Court is needed directing the USCFC to apply the
exclusive law [constitutional law Title 28 USC Section 1498(a)] to the
established Facts.

Therefore, the petition for a writ of certiorari should be granted.

Respectfully submitted,

2

U.S. Citizen, Independent Inventor, Owner, Pro Se.
(An article 1 creature of the U.S. Constitution)
Date: August 15, 2021

/s; -2 02./

